APPENDICES
Appendix A

Ninth Circuit Order Denying COA

Appendix B

U.S. District Court Order Adopting R& R
and Denying COA

Appendix C

U.S. District Court Magistrate Judge’s Report and
Recommendation

Appendix D

Petitioner’s Objections to Magistrate’s Report and
Recommendation

APPENDIX A
Ninth Circuit Order Denying COA

Case: 20-15427, 07/13/2020, ID: 11750464, DktEntry: 5, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

JUL 13 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

DOUGLAS D. YOKOIS,
Petitioner-Appellant,
v.
DAVID SHINN, Director; MARK
BRNOVICH, Attorney General,

No.

20-15427

D.C. No. 2:18-cv-01312-DGC
District of Arizona,
Phoenix
ORDER

Respondents-Appellees.
Before:

SILVERMAN and COLLINS, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 4) is denied
because appellant has not shown that “jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether the district court was correct
in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28
U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012).
Any pending motions are denied as moot.
DENIED.

APPENDIX B
U.S. District Court Order
Adopting R& R and Denying COA

Case 2:18-cv-01312-DGC Document 28 Filed 02/10/20 Page 1 of 4

1

WO

2
3
4
5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

Douglas D. Yokois,

No. CV-18-01312-PHX-DGC (MHB)
Petitioner,

10
11

vs.

12

David Shinn, Director of the Arizona
Department of Corrections; and Mark
Bmovich, Attorney General of the State of
Arizona,

13
14

ORDER

Respondents.

15
16
17

Douglas Yokois is confined in Arizona state prison. He has filed a petition for

18

writ of habeas corpus pursuant to 28 U.S.C. § 2254. Doc. 1. Magistrate Judge Michelle

19

Bums issued a report recommending that the petition be dismissed (“R&R”). Doc. 17.

20

Yokois filed an objection. Doc. 21. For reasons stated below, the Court will accept the

21

R&R and dismiss the petition.

22

I.

Background.

23

In September 2017, Yokois was indicted in state court on multiple charges of

24

sexually abusing and exploiting his twelve-year old daughter. Doc. 10-1 at 12-18. He

25

pled guilty to two counts of attempted sexual conduct with a minor and one count of

26

sexual exploitation of a minor. Id. at 29-53.

27

prison in March 2009. Id. at 72-96.

28

1

He was sentenced to twenty-two years in

Case 2:18-cv-01312-DGC Document 28 Filed 02/10/20 Page 2 of 4

1

Yokois waived his right to appeal by pleading guilty and did not seek

2

post-conviction relief in state court. He brought this federal habeas proceeding in April

3

2018, asserting due process violations resulting from ineffective assistance of counsel.

4

Doc. 1. Judge Bums recommends that the petition be dismissed as untimely. Doc. 17.

5

II.

R&R Standard of Review.

6

This Court “may accept, reject, or modify, in whole or in part, the findings or

7

recommendations made by the magistrate judge.” 28 U.S.C. § 636(b)(1). The Court

8

“must review the magistrate judge’s findings and recommendations de novo if objection

9

is made, but not otherwise.” United States v. Reyna-Tapia, 328 F.3d 1114, 1121 (9th Cir.

10

2003) (en banc). The Court is not required to conduct “any review at all. .. of any issue

11

that is not the subject of an objection.” Thomas v. Am, 474 U.S. 140, 149 (1985);

12

see also 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b)(3).

13

III.

The AEDPA’s One-Year Limitation Period.

14

Federal habeas proceedings are governed by the Antiterrorism and Effective Death

15

Penalty Act of 1996 (“AEDPA”), 28 U.S.C. § 2241 et seq. The AEDPA establishes a

16

one-year limitation period for the filing of habeas petitions. 28 U.S.C. § 2244(d); see

17

Pliler v. Ford, 542 U.S. 225, 230 (2004). The limitation period generally begins to run

18

when the state conviction becomes final by the expiration or conclusion of direct review.

19

28 U.S.C. § 2244(d)(1)(A).

20

Equitable tolling applies where the petitioner shows that “(1) some ‘extraordinary

21

circumstance’ prevented him from filing on time, and (2) he has diligently pursued his

22

rights.” Luna v. Kernan, 784 F.3d 640, 646 (9th Cir. 2015) (citing Holland v. Florida,

23

560 U.S. 631, 649 (2010)). In addition, an equitable exception to the limitation period

24

applies if the petitioner establishes a fundamental miscarriage of justice through a

25

“credible showing of actual innocence.” McQuiggin v. Perkins, 569 U.S. 383, 392

26

(2013); see Schlup v. Delo, 513 U.S. 298, 327 (1995). i

27
28

i

Statutory tolling is available for the time during which a properly filed petition

2

Case 2:18-cv-01312-DGC Document 28 Filed 02/10/20 Page 3 of 4

1

IV.

Judge Burns’s R&R.

2

Judge Bums found Yokois’s habeas petition untimely under the AEDPA’s

3

one-year limitation period because he filed the petition nearly eight years after his

4

conviction became final in June 2009, and he has not established equitable tolling.

5

Doc. 17 at 4-8. Judge Bums noted that Yokois does not explain why he waited so long to

6

file the petition, and nothing in the record suggests that an external force prevented him

7

from timely filing. Id. at 5. Judge Bums concluded that Yokois has failed to present

8

evidence of actual innocence to support his miscarriage of justice arguments. Id. at 6-8.

9

Judge Burns found Yokois’s reliance on Martinez v. Ryan, 566 U.S. 1 (2012), misplaced

10

because Martinez “recognized a narrow set of circumstances in which the procedural

11

default of a claim of ineffective assistance of trial counsel can be excused” and “does not

12

apply to tolling the limitations of § 2244(d).” Id. at 6 (emphasis in original; citing Cook

13

v. Ryan, 688 F.3d 598, 607 (9th Cir. 2012)).

14

V.

Yokois’s Objection.

15

Yokois does not dispute that his petition is untimely. Doc. 21 at 5. He contends

16

that Judge Bums erred in failing to apply the miscarriage of justice exception. Id. at 5-6.

17

A miscarriage of justice occurs when “a constitutional violation has probably resulted in

18

the conviction of one who is actually innocent.” Schlup, 513 U.S. at 327. To establish

19

the requisite probability, the petitioner must prove with “new reliable evidence” that “it is

20

more likely than not that no reasonable juror would have found petitioner guilty beyond a

21

reasonable doubt.” Id. at 324, 327. Yokois presents no such evidence. See id. at 324 (a

22

gateway claim of actual innocence requires “new reliable evidence - whether it be

23

exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical

24

evidence - that was not presented at trial”); see also McQuiggin, 569 U.S. at 386

25

(cautioning that “tenable actual-innocence gateway pleas are rare”); House v. Bell, 547

26
27
28

for post-conviction relief is pending in state court. 28 U.S.C. § 2244(d)(2). As noted,
Yokois did not seek post-conviction relief.

3

Case 2:18-cv-01312-DGC Document 28 Filed 02/10/20 Page 4 of 4

1

U.S. 518, 538 (2006) (emphasizing that the Schlup standard is “demanding” and seldom

2

met).

3

Yokois contends that “fundamental flaws” and “structural errors” in the state court

4

proceedings provide an alternative basis for the miscarriage of justice exception, but cites

5

no legal authority in support of this contention. Doc. 21 at 6-11. The Supreme Court has

6

recognized only one instance where a miscarriage of justice can excuse an untimely

7

habeas petition: actual innocence. See Schlup, 513 U.S. at 327; McQuiggin, 569 U.S. at

8

386. Yokois has failed to make a credible showing of actual innocence.

9

Yokois notes that he cited Martinez to address the possibility that this Court

10

“might make a separate finding that [he] failed to exhaust state remedies and therefor

11

federal habeas relief is unavailable.” Doc. 21 at 5. The Court makes no such finding.

12

Judge Bums correctly found that Martinez does not excuse Yokois’s untimeliness under

13

the AEDPA. Doc. 17 at 6-7.

14

IT IS ORDERED:

15

1.

Judge Bums’s R&R (Doc. 17) is accepted.

16

2.

Yokois’s petition for writ of habeas corpus (Doc. 1) is dismissed.

17

3.

A certificate of appealability and leave to proceed in forma pauperis on

18

appeal are denied because Yokois has not made a substantial showing of the denial of a

19

constitutional right as required by 28 U.S.C. § 2253(c)(2).
The Clerk is directed to enter judgment and terminate this action.

20

4.

21

Dated this 10th day of February, 2020.

22
23
24
25

David G, Campbell
Senior United States District Judge

26
27
28
4

APPENDIX C
U.S. District Court
Magistrate Judge’s R & R

Case 2:18-cv-01312-DGC Document 17 Filed 08/05/19 Page 1 of 9

1
2
3
4
5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

Douglas D. Yokois,

)

REPORT AND RECOMMENDATION

Petitioner,

10
11

vs.

12

Charles L. Ryan, et al.,

CV 18-01312-PHX-DGC (MHB)

)
)
)

Respondents.

13
14
15

TO THE HONORABLE DAVID G. CAMPBELL, UNITED STATES DISTRICT COURT:

16

Petitioner Douglas D. Yokois, acting through counsel, has filed a Petition for Writ of

17

Habeas Corpus pursuant to 28 U.S.C. § 2254 (Doc. 1). Respondents filed an Answer (Doc.

18

10), and Petitioner filed a Reply (Doc. 14).
BACKGROUND

19
20

Pursuant to a plea agreement, on March 12, 2009, Petitioner was convicted in

21

Maricopa County Superior Court, case CR2007-155558, of two counts of attempted sexual

22

conduct with a minor and one count of sexual exploitation of a minor. He was sentenced to

23

a 22-year term of imprisonment.' (Doc. 4.)

24
25
26
27
28

i

According to the record, Petitioner was indicted on September 4, 2007, for 26 counts
related to the sexual abuse of his 12-year-old daughter, including, two counts of molestation of a
child, two counts of sexual conduct with a minor, one count of sexual abuse, nineteen counts of
sexual exploitation of a minor, and one count of furnishing obscene or harmful items to a minor.
(Exh. C.)

Case 2:18-cv-01312-DGC Document 17 Filed 08/05/19 Page 2 of 9

1

After sentencing, the record reflects that Petitioner failed to seek further review in any

2

post-conviction relief proceeding at the superior court or in any other state court. Petitioner

3

filed his habeas petition in this Court on April 27,2018, raising five grounds for relief. (Doc.

4

1.)

5

In Ground One, Petitioner alleges that his due process rights and right to counsel were

6

violated when his trial counsel failed to inform him of the “constitutional rights, obligations

7

or requirements associated with aggravating factors and aggravated terms of imprisonment”

8

during Petitioner’s “first trial.”2 In Ground Two, Petitioner alleges that his due process rights

9

and right to counsel were violated when his trial counsel failed to investigate his innocence.

10

In Ground Three, Petitioner alleges that his due process rights and right to counsel were

11

violated when his trial counsel failed to inform him of the constitutional rights, obligations,

12

or requirements associated with aggravating factors and aggravated terms of imprisonment

13

during Petitioner’s second trial. In Ground Four, Petitioner alleges that his due process rights

14

and right to counsel were violated when his trial counsel failed to object to the court’s

15

improper determination of aggravating factors. In Ground Five, Petitioner alleges that his due

16

process rights and right to counsel were violated when his trial counsel failed to object to the

17

imposition of sentence in the absence of properly determined aggravating factors. (Docs. 4,

18

1.)

19
20
21

DISCUSSION
In their Answer, Respondents contend that Petitioner’s habeas petition is untimely
and, as such, must be denied and dismissed.

22
23
24
25
26
27
28

2 The Court notes that throughout his Petition, Petitioner refers to his “first trial” and
“second trial” - presumably referring to his change-of-plea proceeding and his sentencing
hearing. Petitioner asserts that the trial judge conducted two separate bench trials in
CR2007-155558 - one to determine Petitioner’s guilt and one to determine the existence of
aggravating factors. Petitioner also states that the first trial was conducted pursuant to a
“stipulated outcome of guilt,” as set forth in a plea agreement. (Docs. 1, 4, 10.)
-2-

Case 2:18-cv-01312-DGC Document 17 Filed 08/05/19 Page 3 of 9

1

The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) imposes a

2

statute of limitations on federal petitions for writ of habeas corpus filed by state prisoners.

3

See 28 U.S.C. § 2244(d)(1). The statute provides:

4
5
6

A 1-year period of limitation shall apply to an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State court. The
limitation period shall run from the latest of(A) the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review;

7
8

(B) the date on which the impediment to filing an application created by State
action in violation of the Constitution or laws of the United States is removed,
if the applicant was prevented from filing by such State action;

9
10

(C) the date on which the constitutional right asserted was initially recognized
by the Supreme Court, if the right has been newly recognized by the Supreme
Court and made retroactively applicable to cases on collateral review; or

11
12

(D) the date on which the factual predicate of the claim or claims presented
could have been discovered through the exercise of due diligence.

13

An “of-righf ’ petition for post-conviction review under Arizona Rule of Criminal

14

Procedure 32, which is available to criminal defendants who plead guilty, is a form of “direct

15

review” within the meaning of 28 U.S.C. § 2244(df(l')(A'). See Summers v. Schriro. 481 F.3d

16

710, 711 (9th Cir. 2007). Therefore, the judgment of conviction becomes final upon the

17

conclusion of the Rule 32 of-right proceeding, or upon the expiration of the time for seeking

18

such review. See id.

19

Additionally, “[t]he time during which a properly filed application for State post­

20

conviction or other collateral review with respect to the pertinent judgment or claim is

21

pending shall not be counted toward” the limitations period. 28 U.S.C. § 2244(d)(2); see Lott

22

v. Mueller. 304 F.3d 918, 921 (9th Cir. 2002). A post-conviction petition is “clearly pending

23

after it is filed with a state court, but before that court grants or denies the petition.” Chavis

24

v. Lemarque. 382 F.3d 921, 925 (9th Cir. 2004). A state petition that is not filed, however,

25

within the state’s required time limit is not “properly filed” and, therefore, the petitioner is

26

not entitled to statutory tolling. See Pace v. DiGuglielmo, 544 U.S. 408,413 (2005). “When

27

a postconviction petition is untimely under state law, ‘that [is] the end of the matter’ for

28

purposes of § 2244(d)(2).” Id. at 414.

-3-

Case 2:18-cv-01312-DGC Document 17 Filed 08/05/19 Page 4 of 9

1

In Arizona, post-conviction review is pending once a notice of post-conviction relief

2

is filed even though the petition is not filed until later. See Islev v. Arizona Department of

3

Corrections. 383 F.3d 1054, 1056 (9th Cir. 2004). An application for post-conviction relief

4

is also pending during the intervals between a lower court decision and a review by a higher

5

court. See Biggs v. Duncan. 339F.3d 1045,1048 (9th Cir. 20031 (citing Carey v. Saffold. 536

6

U.S. 214, 223 (2002)). However, the time between a first and second application for post­

7

conviction relief is not tolled because no application is “pending” during that period. See id-

8

Moreover, filing a new petition for post-conviction relief does not reinitiate a limitations

9

period that ended before the new petition was filed. See Ferguson v. Palmateer. 321 F.3d

10

820, 823 (9th Cir. 2003).

11

The statute of limitations under the AEDPA is subject to equitable tolling in

12

appropriate cases. See Holland v. Florida. 560 U.S. 631, 645-46 (2010). However, for

13

equitable tolling to apply, a petitioner must show ‘“(1) that he has been pursuing his rights

14

diligently and (2) that some extraordinary circumstances stood in his way”’ and prevented

15

him from filing a timely petition. Id. at 2562 (quoting Pace. 544 U.S. at 418).

16

The Court finds that Petitioner’s Petition for Writ of Habeas Corpus is untimely. On

17

March 12,2009, the trial court sentenced Petitioner pursuant to the terms set forth in the plea

18

agreement. By pleading guilty, Petitioner waived his right to a direct appeal, and had 90 days

19

to file an “of-right” petition for post-conviction relief under Rule 32 of the Arizona Rules of

20

Criminal Procedure, which he failed to do.

21

Thus, Petitioner’s case became final and the statute of limitations began running on

22

June 10, 2009. Petitioner was required to initiate habeas proceedings on or before June 10,

23

2010. Petitioner filed his habeas petition on April 27, 2018. Absent equitable tolling, his

24

habeas petition is untimely by almost 8 years. See United States v. Marcello, 212 F.3d 1005,

25

1010 (7th Cir. 2000) (federal habeas petition submitted one day late was properly dismissed

26

as untimely under AEDPA, noting that a “missed” deadline “is not grounds for equitable

27

tolling”); Hartz v. United States. 419 Fed.Appx. 782, 783 (9th Cir. 2011) (unpublished)

28
-4-

Case 2:18-cv-01312-DGC Document 17 Filed 08/05/19 Page 5 of 9

1

(affirming dismissal of federal habeas petition where petitioner “simply missed the statute

2

of limitations deadline by one day”).

3

The Ninth Circuit recognizes that the AEDPA’s limitations period may be equitably

4

tolled because it is a statute of limitations, not a jurisdictional bar. See Calderon v. United

5

States Dist. Ct. (Beeler), 128 F.3d 1283, 1288 (9th Cir. 1997), overruled in part on other

6

grounds by Calderon v. United States Dist. Ct. fKelly! 163 F.3d 530, 540 (9th Cir. 1998).

7

Tolling is appropriate when ‘“extraordinary circumstances’ beyond a [petitioner’s] control

8

make it impossible to file a petition on time.” Id; see Miranda v. Castro. 292 F.3d 1063,

9

1066 (9th Cir. 2002) (stating that “the threshold necessary to trigger equitable tolling [under

10 AEDPA] is very high, lest the exceptions swallow the rule”) (citations omitted). “When
11

external forces, rather than a petitioner’s lack of diligence, account for the failure to file a

12

timely claim, equitable tolling of the statute of limitations may be appropriate.” Miles v.

13

Pruntv. 187 F.3d 1104, 1107 (9th Cir. 1999). A petitioner seeking equitable tolling must

14

establish two elements: “(1) that he has been pursuing his rights diligently, and (2) that some

15

extraordinary circumstance stood in his way.” Pace, 544 U.S. at 418. Petitioner must also

16

establish a “causal connection” between the extraordinary circumstance and his failure to file

17

a timely petition. See Bryant v. Arizona Attorney General. 499 F.3d 1056, 1060 (9th Cir.

18

2007).

19

There is nothing in the record explaining why Petitioner waited almost 8 years to file

20

his Petition or indicating that an external force prevented him from timely filing the Petition.

21

And, a petitioner’s pro se status, indigence, limited legal resources, ignorance of the law, or

22

lack of representation during the applicable filing period do not constitute extraordinary

23

circumstances justifying equitable tolling. See. e.g..Rasberrvv. Garcia. 448 F.3d 1150.1154

24

(9th Cir. 2006) (“[A] pro se petitioner’s lack of legal sophistication is not, by itself, an

25

extraordinary circumstance warranting equitable tolling.”).

26

\\\

27

\\\

28

\\\

-5-

Case 2:18-cv-01312-DGC Document 17 Filed 08/05/19 Page 6 of 9

1

Petitioner attempts, however, to explain his untimeliness by stating that he “seeks to

2

file his Petition pursuant to Martinez v. Ryan, 566 U.S. 1, 132 S.Ct. 1309 (2012), and its

3

progeny...

4

Petitioner’s post conviction relief counsel’s failure to file for post conviction relief allows

5

this court to consider all aspects of Petitioner’s claims of ineffective assistance of counsel at

6

time of first and second trials.” In his Reply to Respondents’ Answer, Petitioner again argues

7

that Martinez applies to excuse his untimeliness, and also argues that he has demonstrated

8

a fundamental miscarriage of justice.

9
10
11
12
13
14

Petitioner states that under Martinez, “the procedural default caused by

In support of his fundamental miscarriage ofjustice claim, Petitioner argues the merits
of the claims set forth in his habeas petition stating, among other things:
Petitioner demonstrated with clarity that he was denied a jury trial in the state
court system, knowingly induced to enter a plea of guilty without investigation
of specific information provided by Petitioner to his defense attorney, duped
into unwitting (and therefore unconstitutional) waiver of fundamental
constitutional rights, subjected to aggravated sentencing without
constitutionally acceptable determination of aggravating factors, and ignored
when he requested appellate review.

17

Petitioner argues that the claim of structural error, the challenge to aggravated
sentencing, the challenge to the plea stipulation to an aggravated term of
imprisonment, and the claim of an involuntary plea is sufficient to invoke the
miscarriage ofjustice exception to the standard time frame for filing a federal
habeas petition.

18

(Doc. 14.) Petitioner states that “[sjtanding alone, a flawed state court procedure that does

19

not demonstrate actual innocence would not ordinarily suffice to qualify for a miscarriage

20

ofjustice exception to untimeliness. However, in this case, the intertwining of the violations

21

does suffice ... .”

15
16

22

Initially, the Court finds that Martinez v. Rvan. 566 U.S. 1 (2012), does not apply

23

here. Martinez recognized a narrow set of circumstances in which the procedural default of

24

a claim of ineffective assistance of trial counsel can be excused because of the

25

ineffectiveness of counsel in PCR proceedings. See Cook v. Rvan. 688 F.3d 598, 607 (9th

26

Cir. 2012). Martinez does not apply to tolling the limitations of § 2244(d). Other courts have

27

also reached this conclusion. See Lambrix v. Sec’v. Florida Dept, of Corr.. 756 F.3d 1246,

28

1249 (11th Cir. 2014) (“the equitable rule in Martinez applies only to the issue of cause to

-6-

Case 2:18-cv-01312-DGC Document 17 Filed 08/05/19 Page 7 of 9

1

excuse the procedural default of an ineffective assistance of trial counsel claim that occurred

2

in a state collateral proceeding and has no application to the operation or tolling of the §

3

2244(d) state of limitations for filing a § 2254 petition”); Madueno v. Rvan. No.

4

CV-13-01382-PHX-SRB, 2014 WL 2094189, at *7 (D. Ariz. May 20,2014) (“Martinez has

5

no application to the statute of limitations in the AEDPA which governs Petitioner’s filing

6

in federal court.”). Thus, Petitioner cannot rely on Martinez to overcome the untimeliness of

7

his claims.

8

Regarding Petitioner’s fundamental miscarriage ofjustice claim, such a claim occurs

9

if a “constitutional violation has probably resulted in the conviction of one who is actually

10

innocent.” Murray v. Carrier. 477 U.S. 478, 495-496 (1986). Under certain circumstances,

11

a claim of “actual innocence” serves as a “gateway through which a petitioner may pass

12

whether the impediment is a procedural bar or expiration of the statute of limitations.”

13

Stewart v. Cate. 757 F.3d 929, 937-938 (9th Cir. 2014). “When an otherwise time-barred

14

habeas petitioner presents evidence of innocence so strong that a court cannot have

15

confidence in the outcome of the trial unless the court is also satisfied that the trial was free

16

of non-harmless constitutional error, the Court may consider the petition on the merits.” Id

17

“The Supreme Court has recently cautioned, however, that tenable actual-innocence gateway

18

pleas are rare.” Id. (citing McOuiggin v. Perkins. 569 U.S. 383, 133 S.Ct. 1924 (2013)). “A

19

petitioner does not meet the threshold requirement unless he persuades the district court that,

20

in light of the new evidence, no juror, acting reasonably, would have voted to find him guilty

21

beyond a reasonable doubt.” Id

22

To establish a claim of “actual innocence” the petitioner must first present “new

23

reliable evidence—whether it be exculpatory scientific evidence, trustworthy eyewitness

24

accounts, or critical physical evidence—that was not presented at trial.” Schlup v. Delo. 513

25

U.S. 298, 324, 115 S. Ct. 851, 865 (1995).

26

\\\

27

\\\

28

\\\

-7-

Case 2:18-cv-01312-DGC Document 17 Filed 08/05/19 Page 8 of 9

1

While Petitioner’s conclusory arguments may challenge the plea process, fairness of

2

his sentence, and the adequacy of the procedures that led to his sentence, Petitioner fails to

3

argue or point to any new reliable evidence of actual, factual innocence. Therefore, Petitioner

4

has not demonstrated that there is evidence of actual innocence such that the fundamental

5

miscarriage of justice exception entitles him to review of his time-barred claims.

6
7

Accordingly, Petitioner is not entitled to any tolling and his habeas petition is
untimely.
CONCLUSION

8
9

Having determined that Petitioner’s habeas petition is untimely, the Court will

10

recommend that Petitioner’s Petition for Writ of Habeas Corpus be denied and dismissed

11

with prejudice.

12
13

IT IS THEREFORE RECOMMENDED that Petitioner’s Petition for Writ of
Habeas Corpus (Doc. 1) DENIED and DISMISSED WITH PREJUDICE;

14

IT IS FURTHER RECOMMENDED that a Certificate of Appealability and leave

15

to proceed in forma pauperis on appeal be DENIED because the dismissal of the Petition is

16

justified by a plain procedural bar and jurists of reason would not find the procedural ruling

17

debatable.

18

This recommendation is not an order that is immediately appealable to the Ninth

19

Circuit Court of Appeals. Any notice of appeal pursuant to Rule 4(a)(1), Federal Rules of

20

Appellate Procedure, should not be filed until entry of the district court’s judgment. The

21

parties shall have fourteen days from the date of service of a copy of this recommendation

22

within which to file specific written objections with the Court. See 28 U.S.C. § 636(b)(1);

23

Rules 72, 6(a), 6(b), Federal Rules of Civil Procedure. Thereafter, the parties have fourteen

24

days within which to file a response to the objections. Pursuant to Rule 7.2, Local Rules of

25

Civil Procedure for the United States District Court for the District of Arizona, objections

26

to the Report and Recommendation may not exceed seventeen (17) pages in length. Failure

27

timely to file objections to the Magistrate Judge’s Report and Recommendation may result

28

in the acceptance of the Report and Recommendation by the district court without further

-8-

Case 2:18-cv-01312-DGC Document 17 Filed 08/05/19 Page 9 of 9

1

review. See United States v. Revna-Tapia. 328 F.3d 1114, 1121 (9th Cir. 2003). Failure

2

timely to file objections to any factual determinations of the Magistrate Judge will be

3

considered a waiver of a party’s right to appellate review of the findings of fact in an order

4

or judgment entered pursuant to the Magistrate Judge’s recommendation. See Rule 72,

5

Federal Rules of Civil Procedure.

6
7
8

9

DATED this 5th day of August, 2019.

VU.nuj+1^.^
Michelle H. Bums
United States Magistrate Judge

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
-9-

Case 2:18-cv-01312-DGC Document 29 Filed 02/10/20 Page 1 of 1

1
2
3
4
5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

Douglas D Yokois,

NO. CV-18-01312-PHX-DGC

Petitioner,

10
11

v.

12

Charles L Ryan, et al.,

13

JUDGMENT IN A CIVIL CASE

Respondents.

14
15
16

Decision by Court. This action came for consideration before the Court. The
issues have been considered and a decision has been rendered.

17

IT IS ORDERED AND ADJUDGED adopting the Report and Recommendation

18

of the Magistrate Judge as the order of this Court. Petitioner’s Petition for Writ of

19

Habeas Corpus pursuant to 28 U. S. C. § 2254 is denied and this action is hereby

20

dismissed.
Debra D. Lucas
Acting District Court Executive/Clerk of Court

21
22
23
24
25
26
27
28

February 10, 2020
By

s/ S. Quinones
Deputy Clerk

APPENDIX D
Petitioner’s Objections to
Magistrate Judge’s R & R

Case 2:18-cv-01312-DGC Document 21 Filed 09/18/19 Page 1 of 12

1 Jimmy Borunda, Esq.
State Bar No. 019683
2 24 South 30th Avenue
Phoenix, Arizona 85009
3 Phone: 602-283-5754
Fax: 602-354-7775
4 iimmv@borundalaw.net
5 Attorney for Petitioner Douglas Yokois
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8 Douglas D. Yokois,

Petitioner,

9
10

vs.

11 Charles L. Ryan, et ai,

)

CV 18-01312-PHX-DGC

)
)
)

)
)
)

PETITIONER'S OBJECTION
TO MAGISTRATE’S REPORT
AND RECOMMENDATION

)

12

Respondents.

)

13
14

COMES NOW Petitioner Douglas D. Yokois, by and through undersigned

15 counsel, pursuant to the 14th Amendment to the United States Constitution;
16 28 U.S.C. § 636(b)(1); Rules 6(a), 6(b), & 72, FRCP; and the Court's 08/13/2019
17 Order (Doc.20) extending time to September 18, 2019; and hereby submits
18 Petitioner's Objection to the Magistrate Judge’s Report and Recommendation
19 (“R & R”) (Doc.17) that was filed on August 5, 2019. The R & R indicated that
20 the Objection was not to exceed seventeen (17) pages. See R & R (Doc.17), at
21 page 8, lines 24-26.
22 I.

PROCEDURAL HISTORY (Federal Court)

23

On April 27, 2018, Petitioner filed his 28 U.S.C. § 2254 Verified Petition

24 for Writ of Habeas Corpus and Memorandum of Law (Doc.l), seeking
25 habeas relief from his state court criminal conviction in Maricopa County Superior
1

Case 2:18-cv-01312-DGC Document 21 Filed 09/18/19 Page 2 of 12

1

Court Cause No. CR2007-155558, in which he was convicted on March 12,2009

2

of the following offenses: Amended Attempted Sexual Conduct With A Minor and

3

Dangerous Crime Against Children in the First Degree, a Non-Dangerous and

4

Non-Repetitive Class 2 Felony (Count 3); Amended Attempted Sexual Conduct

5 With A Minor and Dangerous Crime Against Children in the First Degree, a
6 Non-Dangerous and Non-Repetitive Class 2 Felony (Count 4); and Sexual
7

exploitation of a Minor and Dangerous Crime Against Children in the Second

8 Degree, a Non-Dangerous and Non Repetitive Class 3 felony (Count 26).
Petitioner was sentenced on Count 3 to Lifetime Probation upon release from

9

10 incarceration, concurrent with probation in Count 4; on Count 4 to Lifetime
11

Probation upon release from incarceration, concurrent with probation in Count 3;

12 and on Count 26 to 22 years (an aggravated term), with 566 days of presentence
13

incarceration credit and with Community Supervision waived pursuant to A.R.S.

14 § 13-603.K and A.R.S. § 41-1604.07.D, due to probation in Counts 3 & 4.
15 II.

PETITIONER PRESENTED FIVE CLAIMS FOR RELIEF

16

A.

17
18
19
20

21
22
23
24

On Ground One, Petitioner Asserted A Violation of His 14th
Amendment Right to Due Process of Law as a Result of
Ineffective Assistance of Counsel at Time of First Trial
(For Stipulated Outcome of Guilt Pursuant to Plea
Agreement) For Failure to Inform Petitioner of
Constitutional Rights, Obligations, and Requirements
Associated with Aggravating Factors and Aggravated
Terms of Imprisonment

The facts supporting Ground One are found at Petitioner’s Verified Petition
(Doc.01), from page 6, line 20, to page 8, line 15.
B.

On Ground Two, Petitioner Asserted A Violation of His 14th
Amendment Right to Due Process of Law as a Result of
Ineffective Assistance of Counsel (1AC) at Time of First
Trial (as to Guilt on Underlying Offenses) for Failure to
Investigate Petitioner's Innocence

25
2

Case 2:18-cv-01312-DGC Document 21 Filed 09/18/19 Page 3 of 12

The facts supporting Ground Two are found at Petitioner’s Verified Petition

1

2 (Doc.01), from page 8, line 20, to page 9, line 12.

6

On Ground Three, Petitioner Asserted A Violation of His
14th Amendment Right to Due Process of Law as a Result
of Ineffective Assistance of Counsel at Time of Second Trial
(For the Determination of Aggravating Factors) For
Failure to Inform Petitioner of Constitutional Rights,
Obligations, or Requirements Associated with Aggravating
Factors or Aggravated Terms of Imprisonment

7

The facts supporting Ground Three are found at Petitioner’s Verified Petition

C.

3
4
5

8 (Doc.01), from page 9, line 19, to page 11, line 25.
D.

9
10
11
12

On Ground Four, Petitioner Asserted A Violation of His 14th
Amendment Right to Due Process of Law as a Result
of Ineffective Assistance of Counsel at Time of Second Trial
(For Determination of Aggravating Factors) For Failure of
Defense Counsel to Object to the Sentencing Court
Improperly Determining Aggravating Factors, Which
Resulted in Petitioner Being Subjected to an Aggravated
Term of Imprisonment

13
The facts supporting Ground Four are found at Petitioner’s Verified Petition
14
(Doc.01), from page 10, line 7, to page 14, line 8.
15
E.
16
17
18

On Ground Five, Petitioner Asserted A Violation of His 14“
Amendment Right to Due Process of Law as a Result
of Ineffective Assistance of Counsel at Time of Second Trial
(For Determination of Aggravating Factors) For Failure of
Defense Counsel to Object to the Sentencing Court Imposing
an Aggravated Term of Imprisonment in the Absence of
Properly Determined Aggravating Factors

19
The facts supporting Ground Five are found at Petitioner’s Verified Petition

20
21
22
23
24
25

(Doc.01), from page 14, line 15, to page 16, line 16.
IH.

THE MAGISTRATE JUDGE’S FINDINGS
First, the Magistrate found that Martinez v. Ryan, 566 U.S. 1 (2012) is

inapplicable. See R & R (Doc.17), at page 6, lines 22-23. Second, the Magistrate
Judge found that Petitioner’s case became final and the statute of limitations
3

Case 2:18-cv-01312-DGC Document 21 Filed 09/18/19 Page 4 of 12

1

began running on June 10, 2009, that Petitioner’s Petition for Writ of Habeas

2 Corpus was untimely, and that, absent equitable tolling, the Petition was untimely
3

and should be dismissed on that basis. See R & R (Doc.17), at page 4, lines 16-24.

4 Third, the Magistrate Judge found that:
5

While Petitioner’s conclusory arguments may
challenge the plea process, fairness of his sentence, ana
the adequacy of the procedures that led to his sentence,
Petitioner fails to argue or point to any new reliable
evidence of actual, factual innocence. Therefore, Petitioner
has not demonstrated that there is evidence of actual
innocence such that the fundamental miscarriage of
justice exception entitles him to review of his time-barred
claims.

6
7
8
9

10 R & R (Doc.17), at page 8, lines 1-5.
11

Finally, the Magistrate Judge recommended that the Petition be denied

12 and dismissed with prejudice and that a Certificate of Appealability be
13

denied. See 08/05/2019 R & R (Doc.17), at page 8, lines 12-17.

14 IV.

OBJECTIONS TO THE MAGISTRATE’S CONCLUSIONS

15

A.

17

The Magistrate Judge’s Conclusion — that Martinez v.
Ryan, 566 U.S. 1 (2012) Is Inapplicable to the Petition in
this Matter — is Incorrect, but that Case Applies in a
Different Context than Discussed in the Report and
Recommendation

18

In the R & R, the Magistrate Judge acknowledged that the holding of

16

19 Martinez v. Ryan, 566 U.S. 1 (2012), provides a basis for excusing a procedural
20 default of a claim of ineffective assistance of trial counsel because of the
21

ineffectiveness of counsel in state collateral (post conviction relief / PCR)

22 proceedings, citing Cook v. Ryan, 688 F.3d 598, 607 (9th Cir. 2012). See R & R
23
24

(Doc.17), at page 6, lines 22-26.
While the purpose of the Magistrate’s discussion was to point out that

25 the holding of Martinez v. Ryan has no application to the operation or tolling
4

Case 2:18-cv-01312-DGC Document 21 Filed 09/18/19 Page 5 of 12

1

of the 28 USC § 2244(d) statute of limitations for filing a 28 USC § 2254

2

petition (i.e., the issue of untimeliness), Petitioner takes pains to reemphasize that

3

he did invoke Martinez v. Ryan in his Petition. The importance of Martinez v.

4

Ryan within the context of this Objection to the Magistrate’s R & R is to address

5

the possibility that the District Court Judge — upon subsequent review of this

6 Objection, the Magistrate’s R & R, and the entire case filings — might make a
7

separate finding that Petitioner failed to exhaust state remedies and therefor

8

federal habeas relief is unavailable. Such a finding is completely independent

9 of the Magistrate’s finding of untimeliness.

The citation and invocation of

10 Martinez v. Ryan eliminates that possibility, because Martinez excuses the failure
11

to exhaust state remedies (i.e., the procedural default).

14

The Magistrate Judge’s Second Finding — That, Absent
Equitable Tolling, the Petition Is Untimely and Should
Be Dismissed on That Basis — Is Non-dispositive, Because
the Petition Was Filed Pursuant to an Exception to
Untimeliness

15

Petitioner assumes that the District Court Judge will agree with the

12

B.

13

16 Magistrate that the Petition in this matter, having been filed nearly eight (8)
17 years late, is an untimely petition. Petitioner points out that his challenge to
18

dismissal of the Petition rests upon a basis that is not only independent of the

19 question of whether the Petition was untimely filed, but constitutes a formal
20

exception to the general rule that untimely petitions are to be dismissed with

21

prejudice. That exception is the fundamental miscarriage of justice exception.

24

Petitioner Argues That the Magistrate Judge’s Third
Finding — That Petitioner Has Not Demonstrated That
There Is Evidence of Actual Innocence Such That the
Fundamental Miscarriage of Justice Exception Entitles
Him to Review of the Time-Barred Claims — Is Incorrect

25

1.

22
23

C.

Petitioner’s Express Acknowledgement
5

Case 2:18-cv-01312-DGC Document 21 Filed 09/18/19 Page 6 of 12

1

In his Petition seeking habeas relief, Petitioner expressly acknowledged

2 the distinction that the Magistrate Judge basically identified, i.e., between (A) clear
3

evidence of actual innocence on the one hand, and (B) fundamental flaws at

4 every stage of the state criminal justice process in his case.
5
6

2.

Petitioner’s Presentation of Fundamental Flaws

The fundamental flaws that permeated the entire case at the state court

7 level included (1) an unknowing and uninformed inducement to entering an
8 admission of guilt, (2) imposition of a sentence that exceeded the statutory
9 maximum in the absence of either a) a knowing admission of aggravating facts
10 or b) the formal determination of aggravating factors by the standard of
11

beyond a reasonable doubt, and (3) the utter absence of effective assistance

12 of counsel at every stage of the state court criminal proceedings.
13
14

3.

Petitioner’s Presentation Was Not “Conclusory”

The Magistrate Judge characterized Petitioner’s presentation ofhis claims for

15 habeas corpus relief under the fundamental miscarriage of justice exception as
16 “conclusory.” See R & R (Doc.17), at page 8, lines 1-2 (“While Petitioner's
17 conclusory argumentsEven a cursory look at the averments of the Petition in
18 this matter will confirm that Petitioner’s claims are grounded in facts and those facts
19 are supported by the record of the state court proceedings and by the Appendix to
20 the Petition, which consists of the plea agreement (Appendix Item 1), the reporter’s
21

transcript of the change of plea proceeding (Appendix Item 2), the personal

22 affidavit of the Petitioner (Appendix Item 3), and the reporter’s transcript of the
23
24

sentencing hearing (Appendix Item 4).
Petitioner demonstrated with clarity that he was denied a jury trial in the state

25 court system, knowingly induced to enter a plea of guilty without investigation of
6

Case 2:18-cv-01312-DGC Document 21 Filed 09/18/19 Page 7 of 12

1

specific information provided by Petitioner to his defense attorney, duped into

2 unwitting (and therefore unconstitutional) waiver of fundamental constitutional
3 rights, subjected to aggravated sentencing without constitutionally acceptable
4 determination of aggravating factors, and ignored when he requested appellate
5 review.
4.

6
7
8

Petitioner’s Presentation Addressed an Alternative to
Clear Evidence of Actual Innocence and Included a
Claim of Structural Error

Petitioner argued that the claim of structural error, the challenge to aggravated

9 sentencing, the challenge to the plea stipulation to an aggravated term of
10 imprisonment, and the claim of an involuntary plea is sufficient to invoke the
11

miscarriage of justice exception to the standard time frame for filing a federal

12 habeas petition. In addition, Petitioner argued structural error in the Petition, as
13
14
15
16
17
18
19
20

follows:
U 18 Because there was no waiver, we have to determine
whether the error was trial error or structural error. See State v.
Henderson, 210 Ariz. 561,567, H 17,115 P.3d 601,607 (2005)
(distinguishing between trial error and structural error); State v.
Ring, 204 Ariz. 534,552, J 45,65 P.3d 915,933 (2003) (same).
Trial errors are characterized as those “ ‘which occur [ ] during
the presentation of the case to the jury, and which may therefore
be quantitatively assessed in the context of other evidence
presented.’ ” Ring, 204 Ariz. at 552, ^ 45, 65 P.3d at 933
(quotingyfr/zona v. Fulminante, 499 U.S. 279,307-08, 111 S.Ct.
1246,113 L.Ed.2d 302 (1991)). Trial errors are subject to either
harmless error or fundamental error review to determine whether
reversal is warranted. Henderson, 210 Ariz. at 567, U 17, 115
P.3d at 607.

21
22
23
24
25

19 Structural errors, however, are subject to automatic
reversal. See Fulminante, 499 U.S. at 309-10, 111 S.Ct. 1246;
see also State v. Hickman, 205 Ariz. 192,199 n. 7, 29,68 P.3d
418, 425 (2003). Structural errors are defined as those errors
which affect the “entire conduct of the trial from beginning to
end.” Fulminante, 499 U.S. at 309-10, 111 S.Ct. 1246. The
United States Supreme Court has designated only a few limited
errors as structural, including a complete failure to provide trial
7

Case 2:18-cv-01312-DGC Document 21 Filed 09/18/19 Page 8 of 12

1
2
3
4
5
6
7

counsel and denial of a public criminal trial. Ring, 204 Ariz. at
552-53, *| 46,65 P.3d at 933-34. Just as those errors qualify as
structural errors, we find that so too does the complete failure of
the trial court to notify and explain to a defendant the right to a
jury trial and to obtain a knowing, intelligent and voluntary
waiver of that right. ^ 19 See State v. Maldonado, 206 Ariz.
339,342, H 12,78 P.3d 1060,1063 (App.2003) (stating that the
right to forego a jury trial is reserved to me defendant personally
until a knowing, intelligent, and voluntary waiver). TTie right to
a jury trial “affect[s] the framework within which the trial
proceeds,” Fulminante, 499 U.S. at 310,111 S.Ct. 1246, and the
failure to personally advise a defendant of that right results in a
violation of the Arizona and United States Constitutions.

8 State v. Stephen Le Noble, 216 Ariz. 180,

18-19, 164 P.3d 686, U 18-19,

9 (App.,2007, Div.l) (referring to trial for guilt, but also applicable to trial for
10 aggravating factors).
11

It seems axiomatic that structural errors for which prejudice is presumed —

12 e.g., denial of jury trial; invalid waiver of fundamental constitutional rights;
13 unconstitutional determination of facts required for aggravated sentencing —
14 constitute a miscarriage ofjustice:
15
16

“A court may also excuse an untimely petition if the
prisoner shows that afundamental "miscarriage ofjustice ” has
occurred...”

17 McQuiggin v. Perkins, 133 S. Ct. 1924, 1935 (2013).
18

In this case, the constitutional violations and the intertwining of violations

19 becomes extremely important. Standing alone, a flawed state court procedure
20 that does not demonstrate actual innocence would not ordinarily suffice to
21

qualify for a miscarriage of justice exception to untimeliness. However, in this

22 case, the intertwining of the violations does suffice:
23
24
25

To be sure, a habeas petitioner need not prove his innocence
beyond all doubt in order to reach the safe haven of the
miscarriage exception: it suffices if the petitioner can show a
probability that a reasonable jury would not have convicted but
for the constitutional violation.
8

Case 2:18-cv-01312-DGC Document 21 Filed 09/18/19 Page 9 of 12

1

Burks v. Dubois, 55 F.3d 712,718 (1995), citing Murray v. Carrier, All U.S. 478,

2

496(1986).

3

Here, Petitioner can show more than an error in proceedings where there

4 might have been a difference in the outcome; Petitioner’s claim involves the
5 failure of an attorney to investigate specific evidence of innocence, combined
6 with complete denial of a trial on the elements of the offense that subjected him
7 to sentencing greater than allowed pursuant to the plea of guilty. There was
8 an unknowing and uninformed inducement to entering an admission of guilt on
9 the part of trial level counsel, imposition by the court of a sentence that exceeded
10 the statutory maximum in the absence of either knowing admission of aggravating
11 facts or formal determination of aggravating factors by the standard of
12 beyond a reasonable doubt. Petitioner suffered the utter absence of effective
13 assistance of counsel at every stage of the state court criminal proceedings.
14

Petitioner pointed out that the United States Supreme Court has recently

15 spoken, in Jae Lee v. United States, 137 S.Ct. 1958 (2017). There, the United
16 States Supreme Court drew a sharp contrast between two types of ineffective
17 assistance, separating for increased scrutiny those instances in which the
18 deficient performance arguably led not to a judicial proceeding of disputed
19 reliability, but rather to the forfeiture of a proceeding itself. The Supreme Court
20 held that:
21
22
23
24

25

When a defendant alleges his counsel's deficient performance
led him to accept a guilty plea rather than go to trial, we do not
ask whether, had he gone to trial, the result of that trial “would
have been different’ than the result of the plea bargain. That is
because, while we ordinarily “apply a strong presumption of
reliability to judicial proceedings“we cannot accord” any
such presumption “to judicial proceedings that never took
place ” (Internal citations omitted).
9

Case 2:18-cv-01312-DGC Document 21 Filed 09/18/19 Page 10 of 12

1
2

We instead consider whether the defendant was
prejudiced by the “denial ofthe entirejudicial proceeding... to
which he had a right.”

3 JaeLeev. United States, 137 S.Ct. 1958,1965 (2017) (bold print added).
4

That is precisely what occurred here. Petitioner was constitutionally entitled

5 to a trial by a jury on any aggravating factors the State of Arizona might assert
6 to subject Petitioner to sentencing greater than the presumptive term. Petitioner
7 was not informed of that right by the Court, the State, or his defense counsel.
8 Petitioner was induced to enter a plea of guilty that subjected him to a stipulated
9 aggravated sentence, thereby unknowingly waiving his federal constitutional
10 rights to a jury trial and to the right to a determination of aggravating factors
11

by proof beyond a reasonable doubt.

12

Further, prejudice is unmistakable — Petitioner was subjected to a sentence

13

greater than that constitutionally permissible on the basis of his plea of guilty,

14 and this occurred solely because he was denied the jury trial to which he
15

was entitled under the federal constitution. Under the United States Supreme

16 Court’s jurisprudence as set forth in Jae Lee v. United States, supra, Petitioner
17
18

is entitled to federal habeas corpus relief.
For the miscarriage of justice exception to untimeliness to apply,

19 Petitioner need not prove his innocence beyond all doubt in order to reach the
20 safe haven of the miscarriage exception: it suffices that he can demonstrate
21

beyond a doubt that he was denied the entire proceeding at which the trial on

22 aggravating factors (i.e., Apprendi's ‘functional equivalent of elements of a
23 greater offense”) were to be determined by a jury. Prejudice cannot be more clear.
24

Here, the combination of multiple constitutional violations, beginning

25 with the failure to investigate specific information supporting a claim of
10

Case 2:18-cv-01312-DGC Document 21 Filed 09/18/19 Page 11 of 12

1

innocence and continuing through a monstrous series of failures to inform

2

Petitioner of fundamental constitutional rights, ending with unknowing waiver

3

and unconstitutional sentencing, constitutes a manifest miscarriage of justice

4

that even included denial of a jury trial for the very facts that subjected

5

Petitioner to aggravated sentencing. Accordingly, Respondents’ untimeliness

6 argument must fail; the miscarriage of justice exception to an untimely petition
7

entitled Petitioner to federal habeas corpus review of his claims for relief.

8

12

THE MAGISTRATE JUDGE’S RECOMMENDATION THAT
THE PETITION BE DENIED AND DISMISSED WITH
PREJUDICE AND THAT A CERTIFICATE OF APPEALA­
BILITY BE DENIED SHOULD BE OVERRULED AND
PETITIONER SHOULD BE GRANTED HABEAS RELIEF
OR, IN THE LESSER ALTERNATIVE, GRANTED AN
EVIDENTIARY HEARING ON HIS CLAIMS OF A
FUNDAMENTAL MISCARRIAGE OF JUSTICE

13

The Magistrate Judge recommended that the Petition be denied

V.
9
10
11

14 and dismissed with prejudice and that a Certificate of Appealability be
15 denied. See 08/05/2019 R & R (Doc.17), at page 8, lines 12-17.
16

Based upon the presentation in this Objection, in the Petition, and in the

17 Reply to the Respondents’ Limited Answer, Petitioner believes that he has made a
18 primafacia case for a miscarriage of justice exception to an untimely filed Petition
19 for Writ of Habeas Corpus. Accordingly, it would be improper to dismiss the
20 Petition with prejudice; and improper to deny a certificate of appealability in the
21 event that the District Court elects to dismiss the Petition.
22
23

RESPECTFULLY SUBMITTED this 18th day of September, 2019.
Law Office of Jimmy Borunda, Esq.

$3

24

25

Jjjnmy Bonanda, Esq.
Attorney for Petitioner Douglas Yokois
11

Case 2:18-cv-01312-DGC Document 21 Filed 09/18/19 Page 12 of 12

1

CERTIFICATE OF FILING AND SERVICE

2

I hereby certify that on the 18th day of September, 2019,1 electronically
filed Petitioner’s Objection to Magistrate’s Report and Recommendation with
3 the United States District Court for the District of Arizona using the CM/ECF
System for the filing and transmittal of a Notice ofElectronic Filing to the following
4 CM/ECF registrant:

5

Joseph T. Maziarz, Chief Counsel; and Eliza C. Ybarra, Assistant Attorney
General, 2005 North Central Avenue, Phoenix, Arizona 85004-1580.

6
7

One additional copy provided to Petitioner Douglas Yokois by First Class
Mail, addressed as follows:
Douglas D. Yokois, #240176
Arizona Department of Corrections
ASPC-E, SMU-1 West
P.O. Box 4000
Florence, AZ 85132

8
9
10
11

CLi^irVtwv/X/

</ JimmWBorunda, Esq.

12
13
14
15
16
17
18
19
20
21
22
23
24
25
12

